         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

 Follow-up Audit of the Department
 of Energy's Financial Assistance for
 Integrated Biorefinery Projects




DOE/IG-0893                        September 2013
                                  Department of Energy
                                     Washington, DC 20585

                                        September 9, 2013

MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Follow-up Audit of the
                         Department of Energy's Financial Assistance for Integrated
                         Biorefinery Projects"

BACKGROUND

The Department of Energy's Bioenergy Technologies Office (Program) supports the
development of biomass resources into commercially viable biofuels, bioproducts and biopower.
The Program provides financial assistance for integrated biorefinery projects to assist in building
and operating facilities at each scale of development: pilot, demonstration and commercial.

The Energy Policy Act of 2005 (EPAct) directed the Department to carry out a program to
demonstrate the commercial application of integrated biorefineries. Subsequently, the Energy
Independence and Security Act of 2007 established additional goals involving advanced biofuel
production. In response, the Program issued three Funding Opportunity Announcements (FOAs)
in 2006, 2007 and 2009, resulting in the selection of 29 projects. As of March 2013, the
Department had obligated over $929 million, including $561 million from the American
Recovery and Reinvestment Act of 2009, for the 29 projects, and had expended approximately
$603 million (65 percent) of those funds. Each recipient was required to contribute an agreed
upon cost-share that ranged from 50 to 60 percent of the total project cost. The Department’s
goal was to demonstrate operation of three integrated biorefineries by 2012, and validate annual
production capacity of 100 million gallons of advanced biofuels by 2014. The annual production
capacity was to be derived from 10 demonstration-scale and commercial-scale projects funded
by the Program.

In our prior audit, Financial Assistance for Biomass-to-Ethanol Projects (DOE/IG-0513, July
2001), we reported that the Department had not met its goal to build a full-scale commercial
biomass production facility by the year 2000, and provided recommendations for improving
Program performance. Management concurred with the recommendations, and agreed to
examine its policies and practices relative to the award, monitoring and termination of financial
assistance. Due to the importance of the Program, we initiated this audit to determine whether
the Department was meeting its integrated biorefinery performance goals.

RESULTS OF AUDIT

Despite over 7 years of effort and the expenditure of about $603 million, the Department had not
yet achieved its biorefinery development and production goals. Specifically, the EPAct mandate
                                                 2


to demonstrate the commercial application of integrated biorefineries had not been met and the
Department was not on target to meet its biofuels production capacity goal. While the Program
reported meeting its goal to demonstrate the successful operation of three integrated biorefineries
by 2012, we noted that none of these refineries were at the commercial scale. Rather, these
biorefineries were primarily much smaller pilot projects. Additionally, we found that the
Program had not fully addressed independent review panel recommendations to improve
Program management.

The Department had not successfully achieved commercial-scale operations even though the
FOAs issued in 2006 and 2007 indicated that the proposed projects should be operational at the
commercial scale within 3 to 4 years. Further, the 2009 FOA indicated proposed demonstration
projects would be operational as soon as possible after award and proceed rapidly to commercial-
scale operations. In fact, 6 of the 15 (40 percent) demonstration-scale and commercial-scale
projects selected from the FOAs were mutually terminated by the Department and the recipients
after expending more than $75 million in Government funds, including one recipient that had
spent $44 million before losing its primary investor. The nine remaining projects have
experienced technical and/or financial problems such as difficulties with ethanol meeting
technical specification requirements, problems with acquiring private industry partners, and
extended environmental reviews. As a result, the projects have experienced delays, including
three projects that have been delayed 2 or more years.

Additionally, we found that the Department was not on target for achieving its 2014 production
capacity goal of 100 million gallons of advanced biofuels. More than half of the projects
specifically identified to contribute to the goal were terminated. As a result, in November 2012,
the Program reduced its 2014 goal to 80 million gallons. Officials stated that one demonstration
project achieved ethanol production in July 2013 and that two other projects expected to
contribute to the goal were nearing completion and are slated to be operational by the end of
2014.

                                       Contributing Factors

The Program's inability to achieve the EPAct mandate and the original 2014 production capacity
goal occurred because selected projects were not at the level of technical readiness needed for
commercial development, and, because of poor market and financial conditions. Specifically:

    •   The Program awarded funding for commercial-scale projects even though the proposed
        technology had not been fully validated at pilot-scale or demonstration-scale facilities.
        The Merit Review Committee for the 2006 FOA noted that none of the projects fully
        met the selection criteria and that each of the proposed projects possessed high-risk
        elements. Program officials acknowledged the projects selected were not fully ready for
        commercial-scale operations and that the projects were high-risk. However, they
        indicated that the EPAct required them to move forward with commercial-scale projects
        and the experience gained from the projects would enable them to accelerate
        development and commercialization efforts by increasing their knowledge of feedstock
        systems, process operations, and providing a better understanding of scale-up issues for
        future facilities.
                                                 3


        We recognize the inherent risks associated with projects of this scope and complexity
        and that we are not in a position to fully evaluate the scientific and/or technical merits of
        integrated biorefinery projects. However, reviewers with the requisite background and
        expertise identified significant technical issues with many of the projects selected for
        funding, including concerns about the readiness for applying technology at the
        commercial scale. In our opinion, if the Department had validated the technology at the
        pilot and/or demonstration scales, it would have had greater assurance that the projects
        were ready to move to commercial scale. This would have strengthened the likelihood
        for success by reducing project scale-up risks. We noted that the Department had
        planned to award up to three commercial-scale projects in the 2006 FOA. However, the
        Department moved forward with negotiations with six applicants, ultimately awarding
        funding for four projects.

        Further, even given management's assertion that the legislative intent of the EPAct
        required the award of commercial-scale projects, we noted that the Department more
        than doubled the funding for commercial-scale projects called for in the 2006 FOA.
        This action was taken despite technical concerns about readiness of the projects.
        Specifically, the Department increased the available funding from $160 million to $385
        million, even though the Merit Review Committee had raised concerns about the
        technical readiness and high-risk nature of these projects.

    •   Program officials also attributed project shortfalls to deteriorating market and financial
        conditions beyond their control, which significantly reduced recipients' revenue streams,
        negatively affected their ability to attract and maintain private sector investors, and
        prevented them from meeting their cost share requirements. Program officials remarked
        that the world-wide financial collapse beginning in 2008 was a significantly greater
        factor to Program performance than normal competitive forces. The Program's assertion
        is supported by similar conclusions reached by the U.S. Government Accountability
        Office (GAO). In its August 2009 report, Biofuels: Potential Effects and Challenges of
        Required Increases in Production and Use (GAO-09-446), GAO stated some
        biorefineries had suspended operations or delayed planned construction due to tight
        credit markets and other ethanol producers had shut down facilities or filed for
        bankruptcy because of unfavorable market conditions. A 2009 peer review of the
        Department's Integrated Biorefinery Program, conducted by a panel of external experts,
        also expressed an overall concern that projects appeared to be at serious risk due to
        financial stress caused by economic conditions.

We also determined that the Program had not fully addressed recommendations to improve
operations that had been made by a 2011 integrated biorefinery peer review conducted by a panel
of external experts. In particular, the Program had not formalized lessons learned and best
practices from ongoing and terminated projects or conducted a "Blue Ribbon" review of the
pertinent aspects of a terminated project. Program officials acknowledged that they had not
implemented the recommendations, but asserted that they took alternative actions that met the
intent of the recommendations. For example, they informally shared lessons learned and best
practices with peers and had incorporated lessons learned from the 2006 FOA into the
subsequent FOAs. Additionally, they had implemented Comprehensive Project Reviews, which
covered all aspects of each project including technical progress, risk management, and business
                                                 4


and financing measures. These actions are notable, but do not fully meet the panel's
recommendations and were not always successful in preventing the problems we observed
during our current review.

Finally, we did not identify any material issues with payments made to three recipients that we
selected for detailed review. We reviewed the allowability of approximately $6.1 million in
costs claimed by the three recipients. Our work identified $12,000 in costs claimed by one
recipient that were incurred and paid outside the authorized grant period. We notified the
Department and it subsequently recovered nearly all of these costs.

                                    Impacts and Path Forward

During the course of our audit, we identified positive steps that the Program had taken to reduce
risk. For example, the Program implemented budget phases and released funding to recipients
only after specific project milestones and performance metrics had been validated. Additionally,
Program officials stated that in some cases, they put projects on hold because recipients failed to
meet their cost-share requirements. As a result, the Department had released only 56 percent of
the obligated funds for commercial-scale and demonstration-scale projects as of March 2013, an
improvement since our 2001 audit revealed that, despite a significant lack of progress, the
Department had released all available funding to its financial assistance recipients. Additionally,
the Program's action to obtain the assistance of independent engineers and its implementation of
annual Comprehensive Project Reviews strengthened its project monitoring, review and
oversight. We also found that subsequent to the 2006 FOA, the Department reduced its risk by
issuing FOAs at demonstration and pilot scales instead of commercial scale. Finally, the
Department modified the requirements in these subsequent FOAs to request more specific
information to include credible, validated data and clearly defined success factors.

As a result of the challenges we noted, the Department is likely to be further delayed in the
successful implementation of a commercial-scale integrated biorefinery, negatively affecting
achievement of the Department's Strategic Plan goal to promote energy security and the Energy
Independence and Security Act of 2007 national goal of increasing the supply of advanced
biofuels to 21 billion gallons by 2022. Additionally, project delays and terminations increase the
risk of wasteful spending as the Department may continue to fund projects that ultimately are
terminated without achievement of the project objectives. Finally, in some cases, project
completion delays have negatively affected the Department's implementation of the Recovery
Act. Specifically, job creation estimates and the intended economic stimulation have not always
been realized.

Despite these improvements, further actions by the Department are needed to fully validate the
technology, analyze factors leading to the termination of an integrated biorefinery project, and to
formalize its lessons learned. Accordingly, we made recommendations to the Department to
improve the management of the Program.

MANAGEMENT REACTION AND AUDITOR RESPONSE

Management concurred with the recommendations and the corrective actions, taken and planned,
were generally responsive to our recommendations.
                                              5


The comments from management are discussed in more detail in the body of the report and are
included in Appendix 3.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
REPORT ON FOLLOW-UP AUDIT OF THE DEPARTMENT OF
ENERGY'S FINANCIAL ASSISTANCE FOR INTEGRATED
BIOREFINERY PROJECTS

TABLE OF
CONTENTS


Integrated Biorefinery Projects

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Management Reaction .....................................................................................................................6

Auditor Comments ...........................................................................................................................7


Appendices

1. Objective, Scope and Methodology ..........................................................................................8

2. Related Reports .......................................................................................................................10

3. Management Comments ..........................................................................................................11
FOLLOW-UP AUDIT OF THE DEPARTMENT OF ENERGY'S FINANCIAL
ASSISTANCE FOR INTEGRATED BIOREFINERY PROJECTS

Background

The Office of Inspector General (OIG) has previously reviewed the Department of Energy's
(Department) biomass efforts. In our prior audit, Financial Assistance for Biomass-to-Ethanol
Projects (DOE/IG-0513, July 2001), we reported that the Department had not met its goal to
build a full-scale commercial biomass production facility by 2000. We recommended that the
Department: (1) prior to award, address merit reviewer concerns and recommendations, and
verify the ability of financial assistance applicants to meet project financial commitments; and
(2) restrict project funding when recipients do not comply with award terms, including
withholding, suspending or terminating funding. Management concurred with the
recommendations, and agreed to examine its policies and practices relative to the award,
monitoring and termination of financial assistance.

Due to the importance of the Department's Bioenergy Technologies Office (Program), we
initiated this audit to determine whether the Department was meeting its performance goals. Our
audit focused on the 15 demonstration-scale and commercial-scale integrated biorefinery projects
selected under the Funding Opportunity Announcements (FOAs) and did not include a review of
14 pilot-scale projects.

Program Management

Despite the expenditure of about $603 million, the Department had not yet achieved its
biorefinery development and production goals. Specifically, the Program had not satisfied its
Energy Policy Act of 2005 (EPAct) mandate to demonstrate the commercial application of
integrated biorefineries and was not on target to meet its biofuels production capacity goal. 1
While the Program reported meeting its goal to demonstrate the successful operation of three
integrated biorefineries by 2012, we noted that none of these integrated biorefineries were at the
commercial scale. Rather, these biorefineries were primarily much smaller pilot projects.
Additionally, we found that the Program had not fully addressed independent review panel
recommendations to improve Program management.

                                            Program Performance

Despite awards to 15 demonstration-scale and commercial-scale integrated biorefineries since
2007, the Department had not successfully achieved commercial operations of its projects. This,
despite the fact that the FOAs issued in 2006 and 2007 indicated the proposed facilities should be
operational within 3 to 4 years, or soon thereafter, and the 2009 FOA indicated proposed
demonstration-scale projects be operational as soon as possible after award and proceed rapidly
to commercial-scale operations. In fact, 6 of the 15 (40 percent) demonstration-scale and

1
 The Program's Multi-Year Program Plan, published in April 2012, included a goal to validate annual production
capacity of 100 million gallons of advanced biofuels by 2014. The Program planned to meet the goal through the
completion of ten demonstration- and commercial-scale projects that would each contribute from 1.5 percent to 24
percent of the desired 100 million gallon production capacity. The Program also included a goal to demonstrate
successful operation of three integrated biorefineries by 2012.



Page 1                                                                                     Details of Finding
commercial-scale projects were mutually terminated by the Department and the recipients after
expending more than $75 million in Government funds. Of the $75 million, one recipient spent
$44 million before losing its primary investor. The projects were terminated for a variety of
reasons. For example, one project never met required performance specifications and the
recipient was unable to obtain additional equity investment. Another project was terminated
because the recipient was unable to complete the scope of work outlined in its financial
assistance agreement.

The nine remaining projects have all experienced technical, financial, and regulatory problems
such as difficulties with ethanol meeting technical specification requirements, problems with
acquiring private industry partners, and extended environmental reviews. As a result, the
projects have experienced delays, including three projects that have been delayed 2 or more
years. Specifically:

    • One project was delayed more than 3 years because it was unable to secure additional
      Federal financial support due to the recipient's financial condition;

    • One project, also delayed more than 3 years, encountered difficulty with its biofuel not
      meeting required technical standards; and

    • Another project, delayed over 2 years, had been unable to attract additional private equity
      partners.

Despite these delays, Program officials stated that one demonstration project achieved
production in July 2013, and two other projects were nearing construction completion, but noted
unexpected complications may still occur, common for scale-up projects of this type, which
move from pilot to demonstration to commercial scale.

Additionally, we found that the Department was not on target for achieving its 2014 production
capacity goal of 100 million gallons of advanced biofuels. More than half of the projects
specifically identified to contribute toward the goal were terminated. As a result, in November
2012, the Program reduced its 2014 goal to 80 million gallons. Officials stated that other
remaining projects expected to contribute to the goal are slated to be operational by the end of
2014.

                                        Questioned Costs

We did not identify any material issues with payments made to three recipients that we selected
for review. We reviewed the allowability of approximately $6.1 million in costs claimed by the
three recipients. Our work identified $12,000 in costs claimed by one recipient that were
incurred and paid outside the authorized grant period. We notified the Department and it
subsequently recovered nearly all of these costs.

Technical, Financial, and Peer Review Concerns

The Program's challenges in meeting its performance goals occurred primarily because selected
projects were not at the level of technical readiness needed for commercial development and

Page 2                                                                        Details of Finding
poor market and financial conditions. Specifically, for many projects, the proposed technology
was not ready for commercial-scale operations at the time of award. Program officials also
attributed project shortfalls to deteriorating market and financial conditions beyond their control,
which significantly reduced recipients' revenue streams and negatively affected their ability to
attract and maintain private sector investors. Additionally, the Program had not fully
implemented peer review recommendations because officials believed that other actions they had
taken met the intent of the recommendation.

                                        Technical Readiness

The Program issued a commercial-scale FOA in 2006, and awarded funding to projects even
though the proposed technology had not been fully validated at pilot-scale or demonstration-
scale facilities. Program officials acknowledged the projects selected were not fully ready for
commercial-scale operations; however, they indicated that EPAct required them to move forward
with commercial-scale projects. Officials stated they would have preferred to issue pilot-scale
and demonstration-scale FOAs first, but told us they were advised by the Department's Office of
Congressional Affairs that: (1) pilot-scale and demonstration-scale projects for the initial FOA
would not meet the intent of Congress; (2) the Program's approach must define commercial-scale
and produce an acceptable biofuel to satisfy requirements of the legislation; and (3) once the
intent of Congress was satisfied, the Program could consider demonstration-scale and pilot-scale
projects in future FOAs.

During the award selection process for the 2006 FOA, the Merit Review Committee noted that
none of the projects fully met the selection criteria outlined in the FOA and that each of the
proposed projects possessed high-risk elements. The criteria were developed to ensure
compliance with EPAct, which required the Department to "select only proposals that:
(1) demonstrate the project will be able to operate profitably without direct Federal subsidy after
initial construction costs are paid; and (2) enable the biorefinery to be easily replicated." In fact,
none of the projects selected were rated above satisfactory by the Merit Review Committee, with
scores ranging from 565 to 670 on a scale of 0 to 1000. Despite these issues, the Merit Review
Committee recommended six projects that it felt had the best potential to address the risks and
provide a demonstration of a commercial facility. We noted that the Department had planned to
award up to three commercial-scale projects in the 2006 FOA. However, the Department moved
forward with negotiations with six applicants, ultimately awarding funding for four projects.

We acknowledge that projects of this scope involve inherent risk and that the OIG is not in a
position to evaluate or conclude on the scientific and technical merits of integrated biorefinery
projects. However, internal and external reviewers with the requisite technical background
identified significant technical issues with many of the projects selected for funding, including
concerns about the projects' readiness for applying technology at the commercial scale. In our
view, if the Department had validated the technology at the pilot and/or demonstration scales, it
would have had greater assurance that the projects were ready to move to commercial scale,
which, in turn, would have strengthened the projects' likelihood for success by reducing scale-up
risks.

Further, even given management's assertion that the legislative intent of EPAct required the
award of commercial-scale projects, we noted that the Department more than doubled the

Page 3                                                                            Details of Finding
funding for commercial-scale projects called for in the 2006 FOA despite technical concerns
about readiness of the projects. Specifically, the Department increased the available funding
from $160 million to $385 million, even though the Merit Review Committee had raised
concerns about the technical readiness and high-risk nature of such projects. At the time, the
Department announced the funding ceiling was raised to expedite energy goals and to front-end
more funding to "reap the benefits" sooner. Department officials believed the experience gained
from the projects selected would enable the Department to accelerate cellulosic ethanol
development and commercialization efforts by increasing its knowledge in feedstock systems
and process operations, and providing a better understanding of scale-up issues for future
facilities. Program officials told us they had achieved this knowledge.

Program officials acknowledged there were risks associated with the projects and stated that they
had instituted more extensive monitoring of the projects to address those risks. For example, the
Program hired independent engineers to assist in project monitoring, review and oversight.
Further, the Program implemented budget phases and released funding to recipients only after
specific project milestones and performance metrics had been validated. Finally, as a result of a
2009 peer review, the Program implemented annual Comprehensive Project Reviews, which
covered all aspects of each project including technical progress, risk management and business
and financing measures.

                                         Market Conditions

Program officials also attributed the difficulties in achieving successful commercial-scale and
demonstration-scale operations to dramatic changes in market and financial conditions in 2008,
resulting in projects losing key partners, significant reductions in projected revenue streams, and
the inability to meet cost-share requirements. Program officials remarked that the world-wide
financial collapse beginning in 2008, was a significantly greater factor to Program performance
than the normal competitive forces that influenced the Program's progress in 2001. For example,
one project was unable to secure a loan guarantee because its projected operating costs were too
high while another project lost its key partner due to the downturn in the economy. Program
officials stated that they put several projects on hold due to the recipients' inability to meet cost-
share requirements. The Program's assertion is supported by similar conclusions reached by the
Government Accountability Office (GAO). In its August 2009 report, Biofuels: Potential Effects
and Challenges of Required Increases in Production and Use (GAO-09-446), GAO stated some
biorefineries had suspended operations or delayed planned construction due to tight credit
markets, and other ethanol producers had shut down facilities or filed for bankruptcy because of
unfavorable market conditions. A 2009 peer review of the Department's Integrated Biorefinery
Program, conducted by a panel of external experts, also expressed an overall concern that
projects appeared to be at serious risk due to financial stress caused by economic conditions.

                                  Peer Review Recommendations

We found that the Department had not fully addressed recommendations to improve operations
that had been made by the 2011 integrated biorefinery peer review conducted by a panel of
external experts. Specifically, the Program had not formalized lessons learned and best practices
from ongoing and terminated projects. The peer review had recommended the Department use
appropriate resources to report on common issues that delay projects or cause cost overruns, as
well as project successes and best practices. A key step in the Department's Peer Review Guide

Page 4                                                                            Details of Finding
is to implement action plans in response to the peer review recommendations and communicate
lessons learned within the Department. Additionally, the Program had not conducted a "Blue
Ribbon" review of the pertinent aspects of one of the Program's terminated projects and the
circumstances surrounding its failure. The peer review had recommended that the "Blue
Ribbon" review: (1) evaluate the origins and approval of the award; (2) evaluate the input and
advice from the Department and its Independent Engineer at critical decision points; (3) assess
the decision-making steps that approved the use of public funds to proceed to construction and
on multiple changes in scope and product mix; and (4) consider the lack of impact or influence
of the 2009 peer review process in which the project was rated low and the peer reviewer's
skeptical comments were largely dismissed by the recipient in its response to those comments.

Program officials did not implement the 2011 integrated biorefinery peer review
recommendations because they believed that alternative actions they took met the intent of the
recommendations. Specifically, while Program officials acknowledged they did not formally
document lessons learned, they stated that they informally share lessons learned and best
practices with peers and had incorporated lessons they learned from the 2006 FOA into the
subsequent FOAs. For example, to mitigate risk, the Department clarified in a subsequent FOA
that projects were required to use Earned Value Management and establish a contingency in their
budgets. Additionally, Program officials said they formally collected and documented results
from Comprehensive Project Reviews. While these actions are notable, they do not fully meet
the panel's recommendation to formalize and report on lessons learned and best practices from
ongoing and terminated projects. To its credit, the Program has committed to formally publish
its lessons learned in May 2014.

Program officials also expressed their belief that the Comprehensive Project Reviews met the
intent of the recommendation for conducting a "Blue Ribbon" review. However, the 2011 peer
reviewers disagreed with this conclusion. Program officials plan to present this issue to an
independent committee in 2013 to achieve resolution. In our view, the Comprehensive Project
Reviews were a notable improvement made by the Program, but do not specifically address the
four aspects the peer reviewers recommended to be covered in a "Blue Ribbon" review.

Increased Risk

As a result of the challenges we noted, the Department is likely to be further delayed in the
successful implementation of a commercial-scale integrated biorefinery, negatively affecting
achievement of the Department's Strategic Plan goal to promote energy security and the Energy
Independence and Security Act of 2007 national goal of increasing the supply of advanced
biofuels to 21 billion gallons by 2022. Additionally, project delays and terminations increase the
risk of wasteful spending as the Department may continue to fund projects that ultimately are
terminated without achieving project objectives. Finally, in some cases, project completion
delays have negatively affected the Department's implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act). Specifically, job creation estimates and the intended
economic stimulation have not always been realized. For example, one Recovery Act integrated
biorefinery project expected to create up to 750 construction and 65-70 permanent jobs had only
created or retained a total of 13 jobs as of June 2012. The project was scheduled to be complete




Page 5                                                                        Details of Finding
by May 2009, but was delayed because it had been unable to secure third party financing for its
cost share. However, Program officials stated that other projects were on track with job creation
estimates.

Positive Steps

We identified positive steps that the Program took to reduce risk. As previously noted, the
Program implemented budget phases and released funding to recipients only after specific
project milestones and performance metrics had been validated. As a result, the Department
released only 56 percent of the obligated funds for commercial-scale and demonstration-scale
projects as of March 2013. These actions represented an improvement because the previous
audit had discovered that, despite a significant lack of progress, the Department released all
available funding to its financial assistance recipients. Additionally, the Program's action to
obtain the assistance of independent engineers and its implementation of annual Comprehensive
Project Reviews strengthened its project monitoring, review and oversight. We also found that
the Department reduced its risk subsequent to the 2006 FOA by issuing the 2007 and 2009 FOAs
at demonstration and pilot scales rather than commercial scale. Finally, the Department
modified the requirements in these subsequent FOAs to request more specific information to
include credible, validated data and clearly defined success factors.

Despite these improvements, further actions by the Department to fully validate the technology,
analyze factors leading to the termination of an integrated biorefinery project, and to formalize
its lessons learned are needed to improve overall Program performance.

RECOMMENDATIONS

To improve the Program's efforts to achieve integrated biorefinery commercial-scale and
demonstration-scale operations, we recommend that the Assistant Secretary for Energy
Efficiency and Renewable Energy ensure that Program officials:

    1. Validate biomass technology at each scale of development, including pilot and
       demonstration, before awarding funds for the next scale;

    2. Implement the recommendation of the 2011 integrated biorefinery peer review to
       formally document common issues that delay projects or cause cost overruns, as well as
       project successes and best practices, establish action plans consistent with Department
       procedures, and communicate lessons learned within the Department; and

    3. Resolve the recommendation of the 2011 integrated biorefinery peer review to conduct a "Blue
       Ribbon" review of a project failure.

MANAGEMENT REACTION

Program management concurred with the recommendations and noted that it had initiated actions
to address them. Management stated it had implemented the recommendation to validate
biomass technology at each scale of development by requiring every biorefinery project to pass a
Critical Decision review, which included verification that results at the prior scale support the

Page 6                                        Recommendations and Management Reaction
process design for the larger facility. In addition, Management stated subsequent biorefinery
FOAs required additional data and on-site validation before release of Government funds.
Management noted it had taken steps to address external peer review recommendations regarding
lessons learned and best practices. In particular, the Department held a public presentation
regarding common issues with the American Institute for Chemical Engineers and informally
shared lessons learned and best practices with parts of the Department of Defense. Management
agreed to continue to prepare and publish reports on the issues in the recommendations and make
the reports available to other offices internally and externally. Further, Management agreed to
create a formal lessons learned document to be published in May 2014.

Regarding our recommendation to address the external peer review recommendation to conduct a
"Blue Ribbon" review of a terminated project, Management stated in its written response that it
was addressing this recommendation by capturing lessons learned in project and merit reviews,
during award selection, and in its project management procedures. Subsequent to its written
response, Management informed us that a decision had been made to gather appropriate
information on the specific terminated project identified by the Peer Review and produce a report
that would address the four aspects that the Peer Review requested be covered in the "Blue
Ribbon" review.

AUDITOR COMMENTS

The Department's corrective actions, taken and planned, are generally responsive to our
recommendations.

Management's comments are included in Appendix 3.




Page 7                                       Recommendations and Management Reaction
Appendix 1

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) was
meeting the Bioenergy Technologies Office's (Program) integrated biorefinery performance
goals.

SCOPE

The audit was conducted between February 2012 and August 2013, at the Department's Golden
Field Office in Golden, Colorado. Our audit included a review of the Program's demonstration-
scale and commercial-scale integrated biorefineries.

METHODOLOGY

To accomplish our objective, we:

    • Interviewed key Program officials.

    • Reviewed and evaluated applicable laws, regulations, policies and procedures, and
      Funding Opportunity Announcements pertaining to the Program including the Program's
      selection, award, and monitoring of integrated biorefinery projects.

    • Reviewed prior Office of Inspector General and U.S. Government Accountability Office
      reports and other related reports.

    • Reviewed and discussed with the Department various external and internal integrated
      biorefinery reviews including merit and peer reviews, independent engineer reviews and
      comprehensive project reviews.

    • Evaluated the Program's progress towards meeting its performance goals.

    • Assessed the extent to which legislative mandates were realized, such as whether the
      number of jobs estimated for integrated biorefinery projects.

    • Judgmentally selected 3 of the 15 demonstration-scale and commercial-scale integrated
      biorefinery projects to perform a detailed review (e.g., cost and schedule parameters,
      goals and milestones, cost share, and award modifications). Attributes considered in
      selecting the projects included award amount, expenditures to date, and variety of
      feedstock and conversion technologies.

    • Selected a judgmental sample of reimbursements to the three selected projects to test for
      cost allowability. Of the $42.5 million reimbursed to the recipients as of April 2012, we
      selected a sample of $6.1 million in payments for testing. Attributes considered in
      selecting our sample included, reimbursement amount and different cost categories, such
      as construction, licensing fee and personnel. Because the sample was judgmental, we
      could not project the results to the population.

Page 8                                                   Objective, Scope and Methodology
Appendix 1 (continued)
We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included test of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 as it relates
to the audit objective and found that the Department had established performance measures
related to Program. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We did not rely on
computer-processed data to accomplish our audit objective.

An exit conference was held with management on August 20, 2013.




Page 9                                                    Objective, Scope and Methodology
Appendix 2
                                    RELATED REPORTS

Office of Inspector General

    • Audit Report on The McNeil Biomass Project (DOE/IG-0630, December 2003). The
      Department of Energy (Department) was directed by Congress to award financial
      assistance to the McNeil Biomass Project to assist it in achieving its goal of
      demonstrating commercial-scale biomass gasification. The Office of Inspector General
      found that the Department continued to fund this project even though there was little or
      no progress, program officials did not closely monitor the project, and officials did not
      ensure that objectives and milestones were appropriate. The Department invested
      approximately $37 million in this project in financial support. Further, the Department
      continued to provide reimbursement to this project up until the recipient filed Chapter 11
      bankruptcy.

    • Audit Report on Financial Assistance for Biomass-to-Ethanol Projects (DOE/IG-0513,
      July 2001). The Department awarded financial assistance to two firms under the biomass
      program, which had a goal to build a full-scale commercial biomass production facility.
      The Office of Inspector General found that: the Department did not meet its program
      goal to have a full-scale commercial biomass production facility; the biomass program
      faced significant technological and financial risk; and proposals were not solicited
      competitively. The Department invested approximately $15 million in these projects in
      financial assistance and construction of the two facilities had not started as of July 2001.

U.S. Government Accountability Office

    • Report on Potential Effects and Challenges of Required Increases in Production and Use
      (GAO-09-446, August 2009). The report found that biofuels production has had mixed
      effects on U.S. agriculture, but the effects of expanded production are less certain.
      Among other things, the report stated that some biorefineries had suspended operations or
      delayed planned construction due to tight credit markets and other ethanol producers had
      shut down plants or filed for bankruptcy because of unfavorable market conditions.




Page 10                                                                         Related Reports
Appendix 3
             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
                                                                   IG Report No. DOE/IG-0893


                                 CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                U.S. Department of Energy Office of Inspector General Home Page

                                         http://energy.gov/ig

    Your comments would be appreciated and can be provided on the Customer Response Form.
